TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                    Controls Over the
                                 Purchase Card Program
                                  Were Not Effective in
                                Ensuring Appropriate Use



                                         August 31, 2011

                              Reference Number: 2011-10-075




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 HIGHLIGHTS


CONTROLS OVER THE PURCHASE                          potentially split into two or more transactions to
CARD PROGRAM WERE NOT                               circumvent micro-purchase limits, and
EFFECTIVE IN ENSURING                               purchases made from improper sources. In
APPROPRIATE USE                                     addition, the IRS did not have a policy to provide
                                                    guidance for establishing an appropriate span of
                                                    control over the number of purchase cardholders
Highlights                                          assigned to approving officials. Until
                                                    management controls are effectively
                                                    strengthened, implemented, and enforced, the
Final Report issued on August 31, 2011              IRS will continue to be at risk for noncompliance
                                                    with applicable laws and regulations, and the
Highlights of Reference Number: 2011-10-075 to      IRS cannot ensure that improper and abusive
the Internal Revenue Service Deputy                 purchases do not occur. In addition, if such
Commissioner for Operations Support and the         purchases do occur, the IRS cannot ensure the
Deputy Commissioner for Services and                transactions are promptly detected and that
Enforcement.                                        appropriate corrective action is taken.
IMPACT ON TAXPAYERS                                 WHAT TIGTA RECOMMENDED
From September 1, 2007, through                     TIGTA recommended that the Deputy
March 31, 2009, the Internal Revenue Service        Commissioner for Operations Support and the
(IRS) made more than 174,000 purchases              Deputy Commissioner for Services and
totaling more than $80 million using purchase       Enforcement emphasize to cardholders that
cards. However, the IRS does not have the           split-purchase transactions will not be tolerated.
necessary controls in place to ensure that          The Chief, Agency-Wide Shared Services,
improper and abusive purchases do not occur,        should emphasize the importance of preparing
any such transactions are promptly detected,        an order log prior to purchase, improve oversight
and appropriate corrective action is taken.         reviews by using data analysis techniques to
WHY TIGTA DID THE AUDIT                             identify potential split-purchase transactions,
                                                    and expand oversight reviews to include
While the use of purchase cards has been            evaluating the requirement for purchasing office
credited with reducing administrative costs,        supplies from contract vendors and preferred
audits of Federal agency purchase card              sources. Finally, the Chief, Agency-Wide
programs have found varying degrees of waste,       Shared Services, should develop and implement
fraud, and abuse. One of the most common risk       guidance for determining an appropriate span of
factors cited by auditors is a weak internal        control for approving officials.
control environment. The overall objective of
this review was to determine whether the IRS’s      The IRS agreed with all our recommendations.
controls over Federal Government                    The IRS stated it has changed its reviews of
micro-purchase cards are sufficient to ensure       split-purchase transactions and expanded
that the IRS’s use of purchase cards is in          oversight reviews to include the use of contract
compliance with all applicable regulations and      vendors and preferred sources. The IRS plans
procedures.                                         to provide guidance on oversight and
                                                    enforcement responsibilities, develop examples
WHAT TIGTA FOUND                                    and scenarios that constitute a split purchase,
                                                    review the potential split purchases TIGTA
While some controls were working as intended,       identified, and review the current span of control
overall management controls were not effective      to identify relevant factors in the development of
to ensure the appropriate use of IRS purchase       a policy on span of control. The IRS also plans
cards. TIGTA found violations of applicable         to emphasize corrective actions regarding the
laws and regulations that included purchases        verification of funding prior to purchase and the
made without necessary approvals and                IRS policy on split-purchase transactions.
verification of funding, purchases that were
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 31, 2011


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Controls Over the Purchase Card Program Were
                             Not Effective in Ensuring Appropriate Use (Audit # 200910009)

 This report presents the results of our review of controls over the Purchase Card Program. The
 overall objective of this review was to determine whether the Internal Revenue Service’s
 controls over Federal Government micro-purchase cards are sufficient to ensure that its use of
 purchase cards is in compliance with all applicable regulations and procedures. This review was
 included in our Fiscal Year 2009 Annual Audit Plan and addresses the major management
 challenge of Erroneous and Improper Payments.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.
                                       Controls Over the Purchase Card Program
                                     Were Not Effective in Ensuring Appropriate Use




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Controls to Ensure That Funding Is Verified and
          Available Prior to Purchase Are Not Effective ............................................. Page 4
                    Recommendation 1:........................................................ Page 7

                    Recommendation 2:........................................................ Page 8

          Purchase Cardholders Appear to Be Splitting Purchases
          to Circumvent Established Single-Transaction Limits ................................. Page 8
                    Recommendations 3: ................................................................. Page 11

                    Recommendations 4 through 6:......................................... Page 12

          Contract Vendors and Preferred Sources for
          Office Supply Purchases Were Not Always Used ........................................ Page 13
                    Recommendations 7 and 8: .............................................. Page 14

          The Span of Control of Some Approving Officials
          Appeared to Be Too Large ............................................................................ Page 14
                    Recommendation 9:........................................................ Page 16

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – Outcome Measure ................................................................ Page 22
          Appendix V – The Purchase Card Process and Controls
          at the Internal Revenue Service .................................................................... Page 23
          Appendix VI –Glossary of Terms ................................................................. Page 27
          Appendix VII – Management’s Response to the Draft Report ..................... Page 29
           Controls Over the Purchase Card Program
         Were Not Effective in Ensuring Appropriate Use




                 Abbreviations

CCS        Credit Card Services
FAR        Federal Acquisition Regulation
GSA        General Services Administration
IRS        Internal Revenue Service
OMB        Office of Management and Budget
WebRTS     Web Requisition Tracking System
                                  Controls Over the Purchase Card Program
                                Were Not Effective in Ensuring Appropriate Use




                                              Background

As a participant in the General Services Administration (GSA) SmartPay Program,1 the
Department of the Treasury selected Citibank MasterCard as the purchase card for all of its
bureaus and offices, including the Internal Revenue Service (IRS). The purchase card saves time
and administrative costs by allowing employees to make official purchases within predetermined
limits instead of preparing procurement requests and associated paperwork. The Federal
Acquisition Regulation (FAR)2 states that the purchase card is the preferred method for making
and paying for purchases of goods and services up to $3,000.3 Federal purchase card programs
must also comply with Department of the Treasury regulations,4 which provide that agencies are
to establish procedures for the use and control of the card that comply with the Treasury
Financial Manual and that are consistent with the terms and conditions of the current GSA credit
card contract.
While the use of purchase cards has been credited with reducing administrative costs, Federal
audits of agency purchase card programs have found varying degrees of waste, fraud, and abuse.
One of the most common risk factors frequently cited is a weak internal control environment.
Internal control is an integral component of an organization’s purchase card program that
provides reasonable assurance that the objectives of effective and efficient operations and
compliance with applicable laws and regulations are being achieved.
During the period September 1, 2007, through March 31, 2009, the IRS’s purchase card program
included 4,270 purchase cardholders under the responsibility of 1,024 approving officials in
16 different IRS business units. The IRS made more than 174,000 purchases totaling more than
$80 million. Use of the purchase card as an alternative to the normal procurement method5 does
not relieve the cardholder from the requirements of the FAR, Federal appropriation law, or
Department of the Treasury and IRS acquisition regulations and guidelines. These directives
also require that comprehensive training and control standards be established by agencies to


1
  See Appendix VI for a glossary of terms.
2
  48 C.F.R. ch. 1 (2009).
3
  Section (§) 807 of Pub. L. No. 108-375 (118 Stat. 2010) requires that the micro-purchase threshold be adjusted for
inflation every 5 years. Pursuant to that provision, § 2.101 of the FAR was amended (71 Federal Register 57366,
September 28, 2006) raising the micro-purchase threshold to $3,000.
4
  Treasury Financial Manual, Volume I, Part 4-4500, “Government Purchase Cards.” FAR, 48 C.F.R. § 13.301(b)
(2002).
5
  In the normal Federal procurement process, acquisition personnel, after determining their agency’s requirements
(that is, the goods and services the agency needs), post a solicitation on the Federal Business Opportunities web site.
Interested companies prepare their offers in response to the solicitation and, in accordance with applicable
provisions of the FAR, agency personnel evaluate the offers.
                                                                                                               Page 1
                                 Controls Over the Purchase Card Program
                               Were Not Effective in Ensuring Appropriate Use



ensure that purchase cards are properly used by employees. The Purchase Card Guide6
summarizes IRS policies and procedures relating to the use of the Federal Government Purchase
Card. The procedures outlined in this Guide apply to all IRS business units. Key internal
controls of the purchase card program in the IRS include:
      •   Mandatory training for all cardholders and approving officials.
      •   Preparation of a requisition for the goods and services in the Web Requisition Tracking
          System (WebRTS) prior to purchase.
      •   Separation of duties related to funding officials, cardholders, and approving officials.
      •   Preparation and recording of actions for each purchase card transaction in the WebRTS
          order log prior to purchase.
      •   Review and approval of all purchases by approving and funding officials.
      •   Periodic program oversight reviews to evaluate the effectiveness of controls over the
          purchase card program.
Within the IRS, the Credit Card Services (CCS) Branch is responsible for managing and
providing oversight for the purchase card program. Additional detail on the purchase card
process in the IRS is provided in Appendix V.
This review was performed at the Agency-Wide Shared Services Headquarters in
Washington, D.C., and in the Employee Support Services CCS Branch offices in
Atlanta, Georgia; Kansas City, Missouri; Buffalo, New York; and Nashville, Tennessee, during
the period July 2009 through December 2010. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




6
    Internal Revenue Service Purchase Card Guide (Document 9185, dated February 2009).
                                                                                                Page 2
                               Controls Over the Purchase Card Program
                             Were Not Effective in Ensuring Appropriate Use




                                    Results of Review

While some controls were working as intended, overall management controls were not effective
to ensure the appropriate use of IRS purchase cards. We found violations of applicable laws and
regulations that included purchases made without necessary approvals and verification of
funding, purchases that were potentially split into two or more transactions to circumvent
micro-purchase limits, and purchases made from improper sources. In addition, the IRS did not
have a policy to provide guidance for establishing an appropriate span of control over the
number of purchase cardholders assigned to approving officials. We found that many individual
approving officials are responsible for more than the recommended number of seven
cardholders.7 Until management controls are effectively strengthened, implemented, and
enforced, the IRS will continue to be at risk for noncompliance with applicable laws and
regulations for purchase cards, and the IRS cannot ensure that improper and abusive purchases
do not occur. In addition, if such purchases do occur, the IRS cannot ensure the transactions are
promptly detected and that appropriate corrective action is taken.
Our audit showed that the CCS Branch conducts quarterly oversight reviews of training to ensure
that cardholders and approving officials receive required training before a purchase card is issued
and refresher training is provided every 2 years. Our control assessment found that this control
was working properly and that training had generally been completed as required. The IRS has
also developed and maintained a system of internal controls for the purchase card program that
are consistent and in conformance with FAR, Treasury Directives, and Office of Management
and Budget (OMB) recommendations; however, many of these controls do not prevent purchase
cards from being used when proper procedures are not followed. Instead, the primary control is
the review and approval of the approving officials to ensure that proper procedures were
followed only after purchases are made. The CCS Branch also evaluates compliance with
purchase card operating guidance to detect and deter noncompliance. The approving official
reviews and CCS Branch oversight reviews were not always effective in identifying
noncompliance with purchase card policies and in changing cardholder behaviors.




7
 Audit Guide: Auditing and Investigating the Internal Control of Government Purchase Card Programs
(GAO-04-87G, dated November 1, 2003).
                                                                                                     Page 3
                                 Controls Over the Purchase Card Program
                               Were Not Effective in Ensuring Appropriate Use



Controls to Ensure That Funding Is Verified and Available Prior to
Purchase Are Not Effective
IRS guidance8 clearly states that the use of the purchase card to make purchases not approved,
funded, and authorized by or in conformance with applicable IRS purchase card guidelines is an
inappropriate use of the purchase card. The guidance also states that purchase cards should not be
used under any circumstance without the necessary approval and a prior confirmation of the
availability of funds to pay for the purchase. The IRS’s method of requesting and certifying the
availability of funds is through the WebRTS. Before a cardholder places an order, a requisition
must be submitted and approved as being an appropriate purchase. Once approved, a funding
official will determine whether funds are available to be committed (set aside to cover the cost)
to support the requisition. In addition, before a cardholder makes a purchase, a WebRTS
Purchase Card Log (hereafter referred to as an order log) must be set up with the required
information and must reference the number of the approved and funded requisition. Specifically,
it is the responsibility of the cardholders and approving officials to prevent violations of the
Anti-Deficiency Act9 by ensuring that funding commitments/obligations for purchases are
properly recorded and available in agency procurement systems and order logs are completed
before goods and services are ordered.
We reviewed a statistically valid sample of 78 purchases made during the period
September 1, 2007, through March 31, 2009. In 30 (38.5 percent) of the 78 transactions
reviewed, purchases totaling $9,504 were made without creating the order log to verify and
ensure approved funding was available.
Further review of the 30 purchases showed that although sufficient funding was available to
support each of the transactions, these purchases were not made in conformance with applicable
IRS purchase card guidelines regarding funding approval and verification, placing the IRS at risk
of incurring an Anti-Deficiency Act violation. For example:
    •   In two instances, the requisition was not prepared, approved, or funded until after the
        purchase was made.
    •   In 28 instances, the purchase cardholder placed the order prior to setting up the order log
        in the WebRTS. However, a requisition had been prepared, approved, and funded for
        these transactions prior to making the purchase.10


8
   Inappropriate Use of: Government Purchase Card; Government Travel Card (Individual and Centrally Billed);
Convenience Check Program (Document 12337, revision dated May 12, 2010).
9
  31 U.S.C. § 1341(a)(1)(A).
10
    Cardholders have the ability to view requisitions within the WebRTS to determine whether or not they have been
funded without setting up an order log. However, there is no way to document whether or not they took this action
to determine whether funding had been approved prior to making a purchase unless they set up an order log and
attach the approved, funded requisition document as required by IRS purchase card policy and procedures.
                                                                                                           Page 4
                                Controls Over the Purchase Card Program
                              Were Not Effective in Ensuring Appropriate Use



Figure 1 shows detailed results of our sample review.
                   Figure 1: Purchases Made Prior to Verification of
                Approved and Available Funding by the IRS Business Unit
                                             Purchases           Total          Amount of            Total
                                            Made Prior to     Purchases in    Purchases Prior      Amount of
                                              Funding            Audit          to Funding        Purchases in
    Organization Unit of Cardholder         Verification        Sample         Verification       Audit Sample
  Tax Exempt and Government Entities              0                1                $0.00            $229.08
  National Taxpayer Advocate                      1                2                49.88             110.23
  Large and Mid-Size Business                     1                2               171.55             251.65
  Office of Appeals                               1                2               502.08             624.58
  National Headquarters                           1                3            1,728.00            2,689.79
  Chief Counsel                                   1                4                88.50           1,293.55
  Modernization and Information
                                                     2                6              399.29          1,677.85
  Technology Services
  Small Business/Self-Employed                       3               13              800.49          4,891.58
  Wage and Investment                                4               13            2,871.08          7,387.55
  Criminal Investigation                             8               14            1,789.89          2,537.41
  Agency-Wide Shared Services                        8               18            1,103.51          6,964.44
     Total                                          30               78          $9,504.27         $28,657.71
Source: Our analysis of a statistically valid sample of 78 purchases made during the period September 1, 2007,
through March 31, 2009.

In October 2008, the IRS initiated a monthly oversight review of purchase card transactions to
determine whether or not order logs are created in a timely manner (referred to as Timely
Creation Reviews). These reviews have also identified high instances of purchase cardholders’
noncompliance by making purchases without prior verification that funding was available. The
percentage of noncompliance during this 5-month review period was relatively constant and did
not show significant improvement as a result of these reviews. Figure 2 shows the
noncompliance rates identified during the Timely Creation Reviews the IRS conducted during
October 2008 through February 2009.
                      Figure 2: Results of IRS Timely Creation Reviews
                              Month of Review             Noncompliance Rate
                              October 2008                      27.2 percent
                              November 2008                     27.8 percent
                              December 2008                     30.2 percent
                              January 2009                      27.5 percent
                              February 2009                     20.8 percent
                           Source: Our analysis of the IRS’s Timely Creation Reviews
                           performed during October 2008 through February 2009.

We compared the 30 purchase cardholders identified in our sample with the cardholders
identified in these 5 Timely Creation Reviews. We found 21 (70 percent) of the 30 cardholders

                                                                                                          Page 5
                                  Controls Over the Purchase Card Program
                                Were Not Effective in Ensuring Appropriate Use



were also identified as noncompliant in 2 or more of the 5 reviews conducted by the IRS.
Further, two purchase cardholders were noncompliant in all five reviews conducted by the IRS.
While the controls are intended to ensure that funding is available prior to purchase, the controls
do not prevent the cardholder from using the purchase cards when the procedures are not
followed. CCS Branch staff believes that purchases made without the verification of approved
funding generally occurred because cardholders waited to set up and complete the order log until
the purchase was received and accepted and the transaction was ready to be reconciled in the
WebRTS.
The primary control to evaluate whether the cardholder followed procedures and verified that
funding was available prior to purchase is the approving official’s review and approval of the
order log in the WebRTS. However, these reviews occur after the purchase is made and are not
effective because IRS guidance does not show the corrective action that the approving official
should take in dealing with cardholders that do not follow the required process. Approving
officials normally do not deny payment of goods and services once the transaction has been
placed on the purchase card. Instead, they approve the transaction with a problem code to ensure
the vendor is paid timely under the Prompt Payment Act.11 If the purchase is determined to be
inappropriate or unnecessary, it can be returned to the vendor for credit. These actions are
reactive in nature and do not prevent the problem from occurring.
The CCS Branch’s Timely Creation Reviews are also a control for evaluating whether
cardholders verified that funding was available prior to purchase. These oversight reviews were
not effective in changing cardholders’ behavior because the CCS Branch does not: 1) notify
either the approving official or the cardholder’s supervisor when it identifies noncompliance with
funding verification requirements; 2) take or recommend any corrective actions (e.g., lowering
card dollar limits, cancelling/suspending cards) against the cardholders; or 3) have supervisory
authority over individual purchase cardholders within the IRS’s program offices to take any
disciplinary actions (e.g., written reprimands or suspension/removal of cardholder). According
to CCS Branch management, they did not take corrective actions because they do not want to
unduly restrict the capability of the IRS’s business units to use the purchase card and realize the
benefits of the card.
In other purchase card reviews, such as the Purchase Card Criteria Review,12 a more proactive
approach is taken by the CCS Branch in providing a warning and restricting purchase card use
for repeat offenders. A similar proactive approach by the CCS Branch to implement corrective
actions involving cardholders identified in the Timely Creation Reviews would provide a greater
level of compliance with the purchase card funding verification procedures. When an
inappropriate use of the purchase card is identified, the CCS Branch should notify Labor
Relations. Inappropriate use of the purchase card is considered an employee conduct issue that

11
     31 U.S.C. §§ 3901–3907.
12
     See Appendix V for more information on this review.
                                                                                            Page 6
                               Controls Over the Purchase Card Program
                             Were Not Effective in Ensuring Appropriate Use



could result in disciplinary action, and the Guide to Penalty Determinations13 provides guidance
for potential disciplinary actions for misuse of the purchase card. When purchase card
transactions are funded prior to making a purchase, but the order log is not established until after
purchase, the CCS Branch does not consider this situation as an inappropriate use of the purchase
card. We believe that repeated noncompliance with the funding verification requirements,
including establishing the order log prior to purchase, is an inappropriate use of the purchase
card and should be referred to Labor Relations.
When cardholders are noncompliant with funding verification requirements, the IRS has an
increased risk that it will be unable to appropriately prioritize the use of limited resources for
purchases as program area budgets are expended. As a result, managements’ decision making
ability for allocating a fixed budget across competing needs and making the best use of available
funding sources is negated. In addition, associated appropriations may be overspent, which
could result in violations of the Anti-Deficiency Act.
Continued noncompliance with purchase card procedures could also weaken the overall internal
control system. According to the Government Accountability Office,14 repeated nonadherence
by agency personnel to established internal control policies and procedures (such as failure to set
up an order log in the WebRTS prior to making a purchase) may not constitute a violation of law
or regulation. However, if allowed to continue, this failure to follow proper procedures will
contribute to erosion and weakening of the internal control system. Prompt administrative and
disciplinary actions (e.g., informal admonishment; formal reprimand; additional required
training; suspension of card privileges; cancellation of the cardholder’s account; and, for more
serious incidences of noncompliance, termination of employment) can be effective in reducing
persistent lack of adherence to policies and procedures by cardholders and other program
personnel. When administrative corrective actions are taken and documented, program
management, oversight personnel, and auditors will be able to identify repeat offenders and
determine that appropriate steps are being taken to address potentially significant problems
before they escalate.

Recommendations
The Chief, Agency-Wide Shared Services, should:
Recommendation 1: Update current purchase card guidance to include the actions required
(e.g., approving officials reporting noncompliance to the CCS Branch) when purchases are
identified that were made without prior verification and documentation of approved and
available funding. This guidance should emphasize the importance of preparing the WebRTS


13
  Internal Revenue Service Guide to Penalty Determinations For Use With IRM 6.751.1 (dated August 13, 2007).
14
  Audit Guide: Auditing and Investigating the Internal Control of Government Purchase Card Programs
(GAO-04-87G, dated November 1, 2003).
                                                                                                       Page 7
                                 Controls Over the Purchase Card Program
                               Were Not Effective in Ensuring Appropriate Use



order log prior to purchase and should be provided to all purchase cardholders, their supervisors,
and approving officials IRS-wide. In addition, the guidance should include a range of corrective
actions (e.g., lowering of purchase card limits to loss of purchase card privileges) that should be
taken in response to recurring or persistent lack of adherence to internal controls and procedures.
         Management’s Response: The Chief, Agency-Wide Shared Services, agreed with
         our recommendation and will develop corrective actions, update the Purchase Card
         Guide, and send communication to purchase cardholders and approving officials
         regarding the implementation of corrective actions.
Recommendation 2: Provide clear guidance to the CCS Branch on the performance of its
oversight and enforcement responsibilities. In addition, current purchase card guidance should
be revised to include a requirement for the CCS Branch to notify the cardholder’s supervisor and
approving official when it determines that purchase card procedures were not followed and
provide clarification as to when the CCS Branch should notify Labor Relations on
noncompliance of purchase card transactions.
         Management’s Response: The Chief, Agency-Wide Shared Services, agreed with
         our recommendation and will ensure the CCS Branch is provided guidance on the
         performance of its oversight and enforcement responsibilities for compliance with the
         purchase card procedures. The guidance will also identify noncompliance circumstances
         that warrant referral by the CCS Branch to Labor Relations.

Purchase Cardholders Appear to Be Splitting Purchases to
Circumvent Established Single-Transaction Limits
A single transaction (i.e., purchase) may consist of multiple items to a single vendor, but the total
dollar amount cannot exceed the cardholder’s single-transaction limit.15 By definition a split
purchase means separating a purchase that exceeds a cardholder’s single-purchase limit or
threshold into two or more transactions as a means of getting around the cardholder’s purchase
limit.16 No Federal Government purchase cardholder may split purchases that exceed the



15
   The maximum allowable single-transaction limit for micro-purchases is $3,000 ($2,500 for services; $2,000 for
construction).
16
   For example: Joe, a cardholder, needs to buy 100 widgets, and the total value of the transaction is $4,000 (or
$40 per widget). Joe knows that the micro-purchase threshold is $3,000. In order to make the transaction less than
the micro-purchase limit, he asks the store to split his order into 2 separate transactions: 1 for $2,800 (70 widgets)
and 1 for $1,200 (30 widgets). This action is called a “split transaction” and is a violation of Federal procurement
regulations. Approving officials should make sure that their assigned cardholders are aware of the prohibition on
split transactions and should monitor cardholder use to check that split transactions are not occurring. The most
common indicator of a split transaction is multiple transactions with the same vendor for the same items on the same
day (or within a period of a few days), where the total amount of the transactions exceeds the micro-purchase limit.
                                                                                                              Page 8
                                 Controls Over the Purchase Card Program
                               Were Not Effective in Ensuring Appropriate Use



cardholder’s limit just to use the purchase card. Doing so is a violation of Federal procurement
law.
The approving official review and approval of the order log in the WebRTS is a control to
evaluate whether the cardholder followed procedures, including the single-transaction limit.
However, the focus of these reviews is on individual transactions. A split-purchase transaction is
not always readily identifiable through this type of review because the transaction is divided
between two or more individual transactions. The OMB recommends that all Federal agencies
perform reviews to identify split purchases and encourages the use of innovative approaches
such as data mining (i.e., data analysis) to detect and prevent misuse of purchase cards.17 In
applying the single-transaction limit, the purchase cardholder must consider the total value of
known requirements per order at the time of purchase.18 When training is involved, the purchase
cardholder must consider the total value of training requested for all attendees by a single
manager.19 Examples of these inappropriate split-purchase transactions are provided on the
Agency-Wide Shared Services’ web site; however, the Purchase Card Guide does not include
these examples or provide a link to the examples.
In October 2009, the IRS initiated its first review to identify instances of purchase cardholders
attempting to split purchases. However, this review was not yet reflected in the CCS Branch
guidance documents. This review was intended to be a control over split purchases. Our
analysis of the documentation for the IRS’s Split-Purchase Review identified that the review was
based on a random sample of 403 (1 percent) from a total of 34,726 transactions occurring
between April 4, 2009, and July 3, 2009. Based on this review, the IRS identified only one
potential split purchase. We do not believe that reviewing a random sample of transactions is the
most effective method of identifying split purchases. A better approach would be to systemically
analyze all transactions for specific characteristics of a potential split-purchase transaction.
In contrast, we analyzed an extract of Citibank database of purchases made by IRS purchase
cardholders between September 1, 2007, and March 31, 2009, to identify potential split
purchases. Our criteria20 included transactions that were:
     •   Performed by the same cardholder.
     •   Conducted with the same vendor.

17
   Improving the Management of Government Charge Card Programs, (OMB Circular No. A-123, Appendix B,
dated January 15, 2009).
18
   In the above example, Joe, a cardholder, needs to buy 70 widgets and the total value of the transaction is $2,800
(or $40 per widget). However, due to an unforeseen change in widgets needed, Joe subsequently needs an additional
30 widgets with a value of $1,200. While the resulting total widgets ordered is $4,000 and exceeds the
single-transaction limit, this would not be a split purchase because the needs or requirements for the additional
widgets were not known at the time of the original purchase.
19
   The total amount of identical training for employees of a single manager cannot exceed $3,000.
20
   Audit Guide: Auditing and Investigating the Internal Control of Government Purchase Card Programs
(GAO-04-87G, dated November 1, 2003).
                                                                                                           Page 9
                                Controls Over the Purchase Card Program
                              Were Not Effective in Ensuring Appropriate Use



     •   Charged on the same day.
     •   In excess of $3,000.
Our analysis identified 843 potential split purchases involving 3,066 individual transactions
made by 437 purchase cardholders. While we provided the complete listing of purchases to the
IRS for its information and subsequent review, we requested that the IRS evaluate 368 of the
transactions where the transaction amount was evenly divided (i.e., $1,520.02 and $1,520.02) on
the day of the purchase to determine whether a split purchase had actually occurred. The IRS
determined that some transactions did have the potential to be split purchases.
IRS analysis of these 368 transactions determined the following:
     •   111 transactions involved Treasury Commercial Vehicle cards,21 which have a higher
         single-transaction limit, and were not split purchases.
     •   220 transactions were not considered to be split purchases.
     •   37 transactions totaling $48,390 had the potential to be split purchases
Examples of potential split purchases that IRS identified include the following:
     •   18 separate transactions, totaling $16,500, for a group of employees to attend the same
         training class. All 18 transactions were conducted on the same day with the same vendor
         by the same cardholder. The total value of the known requirements for the training
         requested for all attendees per manager must be under $3,000 to use the purchase card.
     •   2 separate transactions, totaling $5,652, for the purchase of file boxes. Both transactions
         were conducted on the same day with the same vendor by the same cardholder.
While the IRS may have had a valid business need to purchase these items, they should have
used another procurement method. When purchases are split in this manner, normal
procurement policies and procedures are not followed and the micro-purchase/single-transaction
dollar limits are circumvented. Split-purchase transactions can also result in the overpayment for
goods and services. In addition, IRS guidelines indicate that split purchases are an inappropriate
use of the purchase card, and the Guide to Penalty Determinations contains a range of




21
  Treasury Commercial Vehicle cards are used for acquiring information technology products and have up to
$100,000 single-transaction limits. None of the 111 transactions exceeded $100,000.
                                                                                                       Page 10
                                 Controls Over the Purchase Card Program
                               Were Not Effective in Ensuring Appropriate Use



disciplinary actions that may be taken when purchase card misuse is identified. In such
situations, Labor Relations should be consulted to determine the appropriate actions to take.22
In 257 of 368 transactions (i.e., the 257 transactions that did not involve the use of the Treasury
Commercial Vehicle cards), the IRS’s evaluation focused in part on whether or not a separate
requisition was prepared for the transactions and, if so, the purchase was determined not to be a
split purchase. However, this is not the only factor that should be considered. The IRS’s
evaluation should have also considered the total value of known requirements per order at the
time of purchase (see footnote 18 on page 9 for an example). We did not conduct additional
audit tests on the potential split-purchase transactions we identified because the scope of this
audit was to evaluate the controls over the use of the purchase card, which includes the IRS’s
process to monitor purchase card use. We have a subsequent audit planned to look at
nonconforming purchase card transactions. However, we believe additional CCS Branch
research and analysis is necessary to fully evaluate whether a split purchase occurred in these
257 transactions, as well as the remaining 2,698 transactions, for a total of 2,95523 transactions
we identified with indicators of split purchase. Because the IRS’s current record retention period
is 3 years, the IRS should focus their review on the potential split purchases occurring within the
past 3 years.24

Recommendations
Recommendation 3: The Deputy Commissioner for Operations Support and the Deputy
Commissioner for Services and Enforcement should emphasize to all purchase cardholders,
supervisors, funding officials, and approving officials that circumvention of the micro-purchase
card single-transaction limits through split-purchase transactions will not be tolerated and agency
personnel are expected to comply with purchase card policies and procedures.
        Management’s Response: The Chief, Agency-Wide Shared Services, agreed with
        our recommendation and will issue a communication on behalf of the Deputy
        Commissioner for Operations Support and Deputy Commissioner for Services and



22
   The IRS’s Inappropriate Use of: Government Purchase Card; Government Travel Card (Individual and Centrally
Billed); Convenience Check Program (Document 12337, revision dated May 12, 2010) states, that if the
Travel/Purchase Cardholder/Convenience Check customer’s manager identifies inappropriate use of a Credit
Card/Convenience Check Program, the manager must consult with Labor Relations before taking any action. If
appropriate based on the information available, the manager may also need to contact the Treasury Inspector
General for Tax Administration. Labor Relations will advise the manager on appropriate actions to take based upon
the facts/circumstances and the appropriate penalty guide.
23
   The 2,955 total transactions was calculated by subtracting the 111 Treasury Commercial Vehicle card transactions
from the 3,066 total transactions identified.
24
   IRS guidance requires purchase card holders to retain documentation relating to activity on the purchase card for
3 years from the payment date of the master invoice (which is 30 days from the billing cycle end date).
                                                                                                          Page 11
                            Controls Over the Purchase Card Program
                          Were Not Effective in Ensuring Appropriate Use



       Enforcement to all purchase cardholders and approving officials outlining the policy on
       split purchases.
The Chief, Agency-Wide Shared Services, should:
Recommendation 4: Update the Purchase Card Guide to include examples to clearly explain
scenarios that constitute a split purchase. In addition, a reference to the Guide to Penalty
Determinations should be provided to alert the cardholders of the disciplinary actions that may
be taken if they knowingly make split-purchase transactions.
       Management’s Response: The Chief, Agency-Wide Shared Services, agreed with
       our recommendation and will consult with the Director, IRS Procurement, about the
       definition of a split purchase to assist in developing examples and various scenarios. The
       CCS Branch will update the Purchase Card Guide with scenarios that constitute a
       split purchase and inform purchase cardholders of disciplinary actions that may be taken
       if they knowingly make split-purchase transactions.
Recommendation 5: Improve split-purchase oversight reviews conducted by the CCS Branch
by using data analysis techniques to identify potential split purchases for further in-depth
analysis to detect purchase cardholders who divided what should be a single transaction into two
or more separate purchases to avoid exceeding the single-transaction limit. In addition, current
purchase card guidance should be updated to include this oversight review.
       Management’s Response: The Chief, Agency-Wide Shared Services, agreed with
       our recommendation and on May 3, 2011, implemented a change to Split-Purchase
       Reviews. The Split-Purchase Review is now conducted using Citibank’s data mining
       tool and 100 percent of these transactions are reviewed. Any findings of a split purchase
       will be referred to Labor Relations.
Recommendation 6: Conduct an in-depth evaluation of the 2,955 potential split-purchase
transactions we identified for which supporting documentation is available within the current
(3 year) record retention period to determine whether or not a split purchase occurred and take
appropriate actions. The in-depth evaluation of these transactions should consider the total value
of known requirements per order at the time of purchase regardless of whether separate
requisitions were prepared.
       Management’s Response: The Chief, Agency-Wide Shared Services, agreed with
       our recommendation and will perform an in-depth evaluation of the purchase card
       transactions that are less than 3 years old and make the results available to the Treasury
       Inspector General for Tax Administration.




                                                                                           Page 12
                            Controls Over the Purchase Card Program
                          Were Not Effective in Ensuring Appropriate Use



Contract Vendors and Preferred Sources for Office Supply Purchases
Were Not Always Used
Micro-purchases are subject to the requirements of FAR Subpart 8, which provides that certain
products be acquired from designated sources, including statutorily preferred vendors. The FAR
requires all Federal agencies to purchase office supplies from contract vendors and preferred
sources. If a contract vendor and preferred source for supplies is not used, the purchase should
be documented in the WebRTS with the required justification by purchase cardholders. Our
review showed that 56 (71.8 percent) of the 78 transactions sampled were for the purchase of
office supplies. In 23 (29.5 percent) instances either a contract vendor and/or preferred source
was not used, and the cardholder did not justify the use of an alternative contract vendor and/or
preferred source in the WebRTS. This included:
   •   8 (10.3 percent) instances where a contract vendor was not used.
   •   14 (17.9 percent) instances where a contract vendor was used, but a preferred source of
       supplies, such as an AbilityOne program supplier, was not used.
   •   1 (1.2 percent) instance where neither a contract vendor nor a preferred source was used.
The remaining 33 of 56 purchases were either from preferred sources (13 instances) or the
supporting documentation (e.g., invoices/receipts provided by the vendor) did not show the
source of the purchase (20 instances). In these 20 (35.7 percent) instances, a contract vendor was
used, but we could not determine whether or not a preferred source was used.
Purchase cardholders either do not fully understand the requirement for contract vendors or
preferred sources of office supplies or they failed to enter the required justification in the
WebRTS to document why they were not using contract vendors and preferred sources. There
are currently no specific controls to ensure that cardholders purchase office supplies only from
contract vendors and preferred sources. As with the funding control previously mentioned, the
control for ensuring the appropriate sources are used is an after-the-fact review. The approving
official’s review, including review of supporting documentations (e.g., invoices/receipts), and
approval of the order log in the WebRTS is the primary control to evaluate whether the
cardholder followed procedures and used contract vendors and preferred sources as required.
However, our audit results showed that this control was not effective. In addition, while the CCS
Branch Transaction Reviews currently include a sample of purchases every month to measure
the overall compliance of purchase card activity, the scope of these reviews does not include an
evaluation of whether purchase cardholders are using contract vendors and preferred sources
when purchasing office supplies. The CCS Branch should expand its Transaction Reviews to
specifically include an evaluation of whether appropriate office supply sources are being used by
purchase cardholders. In addition, all transaction-related reviews would be more effective if
cardholder supervisors and approving officials were notified, in addition to individual purchase


                                                                                          Page 13
                                 Controls Over the Purchase Card Program
                               Were Not Effective in Ensuring Appropriate Use



cardholders, when transactions are identified that are not in compliance with regulations and
purchase card procedures.
When contract vendors and preferred sources for office supply purchases are not used, the IRS is
not in compliance with Federal procurement policies, which could result in the Federal
Government failing to obtain the best value for its purchases and failing to meet social-economic
procurement goals.25

Recommendations
The Chief, Agency-Wide Shared Services, should:
Recommendation 7: Reemphasize the statutory requirement for purchasing office supplies
from contract vendors and preferred sources to both cardholders and approving officials. In
addition, the importance of properly documenting the occasional circumstances in which this
cannot be accomplished should also be addressed.
        Management’s Response: The Chief, Agency-Wide Shared Services, agreed with
        our recommendation and stated communication was sent on February 1, 2011, to
        purchase cardholders and approving officials reminding them of the requirement to use
        contract vendors and preferred sources and to document order logs when these sources
        cannot be used.
Recommendation 8: Expand the scope of the monthly Transaction Reviews currently
conducted by the CCS Branch to include an evaluation of whether contract vendors and preferred
sources are being used by purchase cardholders for office supply purchases. In addition, current
purchase card guidance should be updated to reflect this oversight review.
        Management’s Response: The Chief, Agency-Wide Shared Services, agreed with
        our recommendation and changed the monthly Transaction Review in July 2011 to
        include an evaluation of whether contract vendors and preferred sources are being used.
        The Purchase Card Guide will also be updated to reflect this review and notification will
        be sent to all purchase cardholders and approving officials.

The Span of Control of Some Approving Officials Appeared to Be Too
Large
The GSA recommends that the ratio of purchase cardholders to approving officials be no more
than seven to one (assuming an average of six or seven transactions per cardholder each month).

25
  It is the policy of the United States, as stated in the Small Business Act, that all small businesses have the
maximum practicable opportunity to participate in providing goods and services to the Federal Government. To
ensure that small businesses get their fair share, the Small Business Administration negotiates annual procurement
preference goals with each Federal agency and reviews each agency’s results.
                                                                                                           Page 14
                               Controls Over the Purchase Card Program
                             Were Not Effective in Ensuring Appropriate Use



The OMB also requires that the span of control for approving officials be periodically evaluated
and that Federal agencies report the ratio of purchase cardholders to approving officials.
For the quarterly report ending June 30, 2009, the IRS reported a ratio of 3.4 purchase
cardholders for each approving official. While the overall ratio of purchase cardholders to
approving officials in the IRS is less than seven to one, many individual approving officials are
responsible for much more than seven purchase cardholders.
At the time of our review, 4,270 employees had been given purchase cards, and 1,024 employees
had been assigned the responsibility of approving the individual purchases made by the purchase
cardholders. Out of the 1,024 approving officials in the IRS, 922 (90 percent) had 7 or fewer
purchase cardholders assigned to them. However, 102 approving officials had more than
7 purchase cardholders assigned to them, and 28 (2.7 percent) approving officials had more than
31 purchase cardholders assigned to them. These 28 approving officials had 32 percent of the
purchase cardholders assigned to them.
Figure 3 shows a detailed breakdown of the number of purchase cardholders assigned to
approving officials.
   Figure 3: Number of Purchase Cardholders Assigned to Approving Officials
  Number of Purchase          Total         Percentage of            Number of           Percentage of Total
     Cardholders          Cardholders Total Cardholders Approving Officials Approving Officials
          1–7                 1,896             44.4%                     922                  90.0%
         8 – 15                 559             13.1%                      53                   5.2%
        16 – 23                 315              7.4%                      16                   1.6%
        24 – 31                 134              3.1%                       5                   0.5%
        Over 31               1,366             32.0%                      28                   2.7%
          Totals              4,270             100%                    1,024                  100%
Source: Our analysis of IRS purchase cardholders and approving officials as of May 4, 2009.

The IRS currently does not have an established policy that addresses the number or range of
purchase cardholders that can be assigned to approving officials. The IRS’s business units
identify approving officials and establish the span of control; however, the CCS Branch has not
evaluated whether the approving official’s current span of control is appropriate. In evaluating
whether the current span of control is appropriate, various factors should be taken into
consideration, including:
   •   The number of cardholders currently assigned.
   •   The number of purchase transactions made by the individual cardholders.
   •   Whether purchase card oversight is the primary job responsibility or a collateral duty.
   •   Trends of cardholder noncompliance.



                                                                                                     Page 15
                             Controls Over the Purchase Card Program
                           Were Not Effective in Ensuring Appropriate Use



When approving officials have too many purchase cardholders under their responsibility or the
approving official role is a collateral duty, approving officials may not be able to provide
adequate oversight to ensure purchase card transactions are in compliance with the guidelines.
For example, during our review we found that:
   •   12 (40 percent) of 30 purchases made without prior verification of approval and funding
       were later approved by officials who were responsible for more than 7 purchase
       cardholders.
   •   6 (26.1 percent) of 23 purchases where contract vendors and preferred sources were not
       used for supplies were approved by officials who were responsible for more than
       7 purchase cardholders.
We did not conduct an in-depth analysis of the approving officials’ span of control, and a direct
correlation could not be made between the errors presented earlier in this report and the number
of purchase cardholders for which the approving officials were responsible. However, we
believe that the greater the workload of the individual approving official, particularly if it is not
the primary role and responsibility, the greater the risk that inappropriate use of the purchase
card could go undetected.

Recommendation
Recommendation 9: The Chief, Agency-Wide Shared Services, should identify relevant
factors for determining the appropriate span of control for approving officials, evaluate whether
the current span of control provides appropriate oversight, and develop and implement policy
guidance for establishing a span of control within business units.
       Management’s Response: The Chief, Agency-Wide Shared Services, agreed with
       our recommendation and will review the current span of control and collaborate with
       business unit organizations to identify relevant factors in support of their program
       activities to develop a policy on span of control.




                                                                                              Page 16
                            Controls Over the Purchase Card Program
                          Were Not Effective in Ensuring Appropriate Use



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS’s controls over Federal
Government micro-purchase cards are sufficient to ensure that the IRS’s use of purchase cards is
in compliance with all applicable regulations and procedures. To accomplish this objective, we:
I.     Reviewed the purchase card use procedures to identify any potential weaknesses and
       noncompliance with applicable regulations and procedures.
       A. Obtained and reviewed Department of the Treasury, OMB, and IRS policies and
          guidance for issuing and using purchase cards and for authorizing and approving
          purchases.
       B. Interviewed CCS Branch personnel responsible for the issuance, use, and monitoring
          of IRS purchase cards and for identifying and correcting noncompliance in the use of
          purchase cards by employees.
       C. Identified and reviewed the processes the IRS currently employs to monitor the use of
          purchase cards.
       D. Identified the type of reviews that the IRS performs (i.e., those performed during our
          audit period and those currently being performed) to ensure that purchase cards are
          being used by employees in accordance with regulations and procedures.
II.    Determined whether purchases made during the audit period September 1, 2007, through
       March 31, 2009, were in compliance with prescribed regulations and purchase card
       procedures.
       A. Obtained from Citibank a database of purchases made by IRS employees from
          September 1, 2007, through March 31, 2009.
       B. Assessed the reliability of computer-processed purchase card data received from
          Citibank and determined that the data were sufficiently reliable to use for audit tests.
          The Treasury Inspector General for Tax Administration’s Information Services Office
          provided a data quality and reliability assurance statement that the Citibank database
          of purchase transactions was complete and reliable to use for audit tests.




                                                                                          Page 17
                                 Controls Over the Purchase Card Program
                               Were Not Effective in Ensuring Appropriate Use



        C. Selected a statistically valid sample of purchases made during the audit period.1 The
           population of purchases made was 174,734 and the sample size was 78. The
           confidence level of the sample was 90 percent, the expected error rate was 5 percent,
           and the precision rate was ± 4 percent.
        D. Reviewed the sample of transactions to verify that purchases were made in
           accordance with established procedures.
III.    Determined whether purchase cardholders2 and approving officials received appropriate
        training.
        A. Obtained a database of all IRS employees who had been issued a purchase card as of
           May 4, 2009.
        B. Selected a statistically valid sample of employees who had been assigned a purchase
           card.3 The population of employees with purchase cards was 4,270 and the sample
           size was 80. The confidence level of the sample was 90 percent, the expected error
           rate was 5 percent, and the precision rate was ± 4 percent.
        C. Identified which IRS business unit the employee is assigned to and determined the
           type of training the employee should have received.
        D. Analyzed IRS training records for the period January 1, 2007, through
           March 31, 2009, and determined whether each employee in the sample and his or her
           respective approving official had completed all of the required training (initial
           functional training or refresher training) during that period.
IV.     Determined whether the IRS has an adequate monitoring system for the purchase card
        program to ensure that cards are being used by employees in accordance with applicable
        regulations and current procedures.
        A. Obtained documentation of IRS reviews performed during the audit period and
           evaluated whether the scope of the reviews was sufficient to identify noncompliance
           with regulations and procedures.
        B. Observed a training review as it was being conducted and assessed whether the
           review was properly performed.




1
  We believed that selecting a statistically valid sample of purchases was the most appropriate way to evaluate
transactions because it allows us to make inferences and project our results to the whole population from which our
sample was derived.
2
  See Appendix VI for a glossary of terms.
3
  We believed that selecting a statistically valid sample of employees with purchase cards was the most appropriate
way to evaluate training.
                                                                                                          Page 18
                              Controls Over the Purchase Card Program
                            Were Not Effective in Ensuring Appropriate Use



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the terms and conditions of the current
GSA credit card contract, the FAR,4 Department of the Treasury regulations,5 and the IRS’s
policies, procedures, and practices for administering the Purchase Card Program. We evaluated
these controls by interviewing management, reviewing applicable documentation, and analyzing
a sample of purchases.




4
 48 C.F.R. ch. 1 (2009).
5
 Treasury Financial Manual, Volume I, Part 4-4500, “Government Purchase Cards.” FAR, 48 C.F.R. § 13.301(b)
(2002).
                                                                                                   Page 19
                          Controls Over the Purchase Card Program
                        Were Not Effective in Ensuring Appropriate Use



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia Mrozowski, Director
Julia Moore, Audit Manager
Darryl Roth, Audit Manager
Mildred Rita Woody, Audit Manager
Tom Cypert, Lead Auditor
Robert Beel, Senior Auditor
Theresa Haley, Senior Auditor
Ken Henderson, Senior Auditor
Tina Augustine, Auditor
Robert Carpenter, Information Technology Specialist




                                                                                  Page 20
                          Controls Over the Purchase Card Program
                        Were Not Effective in Ensuring Appropriate Use



                                                                  Appendix III

                         Report Distribution List
Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief Counsel CC
National Taxpayer Advocate TA
Chief, Agency-Wide Shared Services OS:A
Director, Employee Support Services OS:A:ESS
Director, Procurement OS:A:P
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief, Agency-Wide Shared Services OS:A




                                                                         Page 21
                               Controls Over the Purchase Card Program
                             Were Not Effective in Ensuring Appropriate Use



                                                                                          Appendix IV

                                    Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Protection of Resources – Potential; $48,390 (see page 8)

Methodology Used to Measure the Reported Benefit:
To determine the protection of resources, we analyzed an extract of Citibank database purchases
made by IRS purchase cardholders between September 1, 2007, and March 31, 2009, to identify
potential split purchases. Our criteria1 included transactions that were:
    •   Performed by the same cardholder.
    •   Conducted with the same vendor.
    •   Charged on the same day.
    •   In excess of $3,000.
Our analysis identified 843 potential split purchases involving 3,066 individual transactions
made by 437 purchase cardholders. We requested that the IRS evaluate 368 of the transactions
where the transaction amount was evenly divided (i.e., $1,520.02 and $1,520.02) on the day of
the purchase to determine whether a split purchase had actually occurred.
From the 368 transactions, the IRS identified 37 transactions totaling $48,390 that appeared to be
split transactions. All of these transactions occurred on the same day to the same vendor. While
the IRS may have had a valid business need to purchase these items, it should have used another
procurement method.




1
 Audit Guide: Auditing and Investigating the Internal Control of Government Purchase Card Programs
(GAO-04-87G, dated November 1, 2003).
                                                                                                     Page 22
                                   Controls Over the Purchase Card Program
                                 Were Not Effective in Ensuring Appropriate Use



                                                                                      Appendix V

               The Purchase Card Process and Controls
                   at the Internal Revenue Service

Credit Card Services Branch responsibilities in the Purchase Card Program
Within the IRS, the CCS Branch is the Agency/Organization Program Coordinator. CCS Branch
responsibilities include:
      •    Oversight responsibility of the IRS’s Purchase Card Program.
      •    Training and certifying new purchase cardholders1 and approving officials and providing
           refresher training every 2 years for existing purchase cardholders and approving officials.
      •    Processing new account applications.
      •    Processing purchase card account maintenance issues such as cancellations, name and
           address changes, limit changes, and acceptance issues.
      •    Issuing program guidance for the Purchase Card Program.
      •    Conducting periodic program reviews to monitor compliance with established controls.
Purchase card process and controls at the Internal Revenue Service
The Office of Procurement Policy provides policy guidance for the Purchase Card Program as it
relates to the FAR, the Department of the Treasury, and the IRS. Within the IRS’s business
units, the Purchase Card Program includes:
      •    Funding officials who ensure that funding is available to pay for the purchase.
      •    Individual cardholders who place orders with an approved vendor, record the date when
           the goods or services are received and accepted, and reconcile internal information
           relating to the transaction posted in the WebRTS with data from Citibank.
      •    Approving officials who review the purchase information and can either approve or
           disapprove the transaction in the WebRTS. Approved purchase card transactions are
           scheduled for payment to Citibank.




1
    See Appendix VI for a glossary of terms.
                                                                                              Page 23
                                 Controls Over the Purchase Card Program
                               Were Not Effective in Ensuring Appropriate Use



In general, the purchase card process in the IRS involved the following controls:
    •    The program office identifies the goods and services it needs and determines the total
         known requirements. Based on the requirements, the program office determines the most
         appropriate method for purchasing these items. If the cost of the total value of the known
         requirements is less than $3,000, a purchase card can be used for the transaction.
    •    The cardholder/requestor creates a requisition in the WebRTS.
    •    The program office approver is responsible for ensuring that the goods and services
         ordered are necessary and appropriate and for entering the proper approval into the
         WebRTS.
    •    The funding official is responsible for funding approved WebRTS requisitions and for
         entering the appropriate accounting code into the WebRTS. This step ensures sufficient
         funds are present to cover the cost of the transaction.
    •    The cardholder creates a purchase card order log (referred to as an order log) in the
         WebRTS referencing the requisition number which verifies funding has been committed
         and records other required information about the purchase.
    •    The cardholder places the order2 with an approved vendor. The cardholder records the
         date when the goods or services are received and accepted in the WebRTS order log.
    •    Once Citibank downloads3 a batch of transactions, the cardholder then associates and
         reconciles transactions posted in the WebRTS.
    •    The approving official then reviews the order log for compliance with all applicable
         guidance and can either approve or disapprove the transaction in the WebRTS. The
         approving official is responsible for ensuring that the purchase cardholder maintains
         copies of any documentation used to create the request into the WebRTS (email, etc.) and
         maintains documents to support receipt and acceptance entered into the system.
    •    Through an interface with the Integrated Financial System, funding is obligated and
         approved purchase card transactions are scheduled for payment to Citibank.
    •    A separate invoice for each master account is sent by Citibank to the Beckley Finance
         Center for payment, and the Beckley Finance Center processes approved purchase card
         transactions for payment.




2
  Only after the funding official has certified the funding can the procurement take place. This occurs once the
requisition reaches Status 66 (i.e., funding is available and the requisition has been approved) in the WebRTS.
3
  The Citibank download process involves the posting of transactions to cardholder’s account.
                                                                                                            Page 24
                                 Controls Over the Purchase Card Program
                               Were Not Effective in Ensuring Appropriate Use



Purchase card approving official responsibilities
As part of its control standards, the IRS requires that every purchase made by an employee with
a purchase card be reviewed and evaluated by an approving official. Approving officials must
perform the following for each transaction:
    •   Determine whether the transaction is a purchase for official IRS business.
    •   Determine whether approval was obtained prior to the purchase.
    •   Confirm that each purchase was allowable within existing IRS and business organization
        guidelines.
    •   Ensure there is approved funding available for each transaction.
    •   Confirm that the order log shows that the goods or services were actually received.
    •   Identify and address any possible cardholder misuse (e.g., approval/funding not secured
        prior to purchase, split purchases, etc.).
    •   Ensure that the cardholder has all required supporting documentation.
    •   Review supporting documentation for transaction accuracy.
The Internal Revenue Service monitoring of the purchase card controls
CCS Branch employees perform several reviews to monitor the effectiveness of controls in the
Purchase Card Program. The CCS Branch reviews included:
    •   Cardholder and Approval Official Training Reviews – quarterly reviews to verify that
        employees are receiving sufficient training.
    •   Transaction Reviews – monthly reviews to compare a sample of Citibank transaction
        reports to purchase information documented in the WebRTS.4
    •   Purchase Card Criteria Reviews – monthly reviews to determine whether the purchase
        card was activated and used at least 2 times in the past 12 months and whether the
        transactions were processed in a timely manner.
    •   Purchase Card Hierarchy Reviews – monthly reviews to evaluate organizational
        movement of employees.



4
  Transaction Reviews are conducted to evaluate compliance with various controls for each transaction; however,
the reviews did not include verifying whether contract vendors and preferred sources for office supply purchases are
used. These reviews should be expanded to include the evaluation of appropriate use of contract vendors and
preferred sources for office supply purchases (see page 13).
                                                                                                           Page 25
                                  Controls Over the Purchase Card Program
                                Were Not Effective in Ensuring Appropriate Use



    •    Received Date Reviews – monthly reviews to verify that received dates are entered in the
         WebRTS order log.
    •    Timely Creation Reviews – monthly reviews to verify that the purchase was created
         timely in the WebRTS order log.5
    •    Split-Purchase Reviews – annual reviews to identify when a single purchase is divided
         into two or more separate purchases to avoid exceeding the single-transaction limit.6




5
  Timely Creation Reviews identified noncompliance with controls intended to ensure that funding was verified and
available before purchases are made; however, the reviews were not effective in changing cardholder behaviors and
stronger corrective actions are needed to deter further noncompliance (see page 4).
6
  Split-Purchase Reviews are conducted to detect split-purchase transactions; however, the CCS Branch
methodology for identifying transactions to include in Split-Purchase Reviews needs to include a data analysis
technique to identify transactions with high potential for meeting the characteristics of a split purchase (see page 8).
                                                                                                               Page 26
                          Controls Over the Purchase Card Program
                        Were Not Effective in Ensuring Appropriate Use



                                                                                Appendix VI

                                 Glossary of Terms

Term                              Definition
AbilityOne Program                A preferred source of suppliers that provides employment
                                  opportunities for people who are blind or have other severe
                                  disabilities in the manufacture and delivery of products and
                                  services to the Federal Government. Federal agencies are
                                  required to purchase certain supplies and services from
                                  designated nonprofit agencies serving people with
                                  disabilities, formerly known as the Javits-Wagner-O’Day
                                  Program.
Agency/Organization
                                  The liaison between the IRS, the bank, and the cardholder.
Program Coordinator
Anti-Deficiency                   Making or authorizing an expenditure or obligation
                                  exceeding an amount available in an appropriation or fund for
                                  the expenditure or obligation.
Approving Official                The IRS’s employee responsible for oversight and approval
                                  of the purchase card activity for the purchase cardholders
                                  under his or her purview. The approving official may be
                                  different than the purchase cardholder’s supervisor.
Collateral Duties                 Official duties and responsibilities assigned to an employee
                                  in addition to the primary duties of the employee’s position.
Contract Vendors                  The IRS has established a desk supply contract with two
                                  vendors (Corporate Express and Office Depot) to promote
                                  competition and to achieve better service and prices. One of
                                  the key elements of this mandatory supply contract is the
                                  provision of next-day desktop delivery to a minimum of
                                  90 percent of approximately 5,500 order sites, located in
                                  nearly 800 facilities in the 48 contiguous United States.
Data Mining                       An automated process used to scan databases to detect
                                  patterns, trends, and anomalies for use in risk management or
                                  other areas of analysis.
Federal Acquisition Regulation    The codification and publication of uniform policies and
(FAR)                             procedures for acquisitions by all Executive Branch agencies.

                                                                                         Page 27
                             Controls Over the Purchase Card Program
                           Were Not Effective in Ensuring Appropriate Use




Term                             Definition
Integrated Financial System      The IRS’s administrative financial accounting system.
Order Point                      The location for which orders are shipped.
Preferred Sources                Suppliers mandated by Congress for social/economic
                                 purposes.
Purchase Card Order Log          A recording of actions that track each step of a purchase,
                                 including the posting date of the transaction and the
                                 association, reconciliation, and approval of the transaction.
Purchase Cardholders             The individual IRS employee who has been trained and
                                 authorized to use the Government Purchase Card.
Reconciliation                   Process of comparing purchase transaction information in the
                                 WebRTS with Citibank records to ensure accuracy.
Requestor                        Individuals responsible for preparing/inputting requisitions
                                 into the automated system and creating the routing path for
                                 the requisition. This could be the cardholder, a budget
                                 analyst, or other individual in the business unit with the
                                 appropriate permissions as a requestor in the WebRTS.
Single-Transaction Limit         Each purchase card account has a limit on the dollar amount
                                 for any one transaction. The maximum allowable
                                 single-transaction limit for micro-purchases is $3,000 ($2,500
                                 for services; $2,000 for construction).
SmartPay                         A GSA program that provides charge cards to Federal
                                 Government agencies through contracts negotiated with
                                 major national banks.
Span of Control                  In the purchase card program, this refers to the number of
                                 cardholders, purchase cards, and purchase card transactions
                                 assigned to an approving official.
Split Purchase                   Separating a small purchase that exceeds a cardholder’s
                                 single-purchase limit or threshold into two or more
                                 transactions as a means of circumventing the cardholder’s
                                 purchase limit.
Web Requisition Tracking         An automated requisition system used by the IRS to monitor
System (WebRTS)                  and control purchase activity; it is used in lieu of a hard copy
                                 Requisition for Equipment, Supplies or Services
                                 (Form 1334).



                                                                                         Page 28
           Controls Over the Purchase Card Program
         Were Not Effective in Ensuring Appropriate Use



                                                  Appendix VII

Management’s Response to the Draft Report




                                                          Page 29
  Controls Over the Purchase Card Program
Were Not Effective in Ensuring Appropriate Use




                                                 Page 30
  Controls Over the Purchase Card Program
Were Not Effective in Ensuring Appropriate Use




                                                 Page 31
  Controls Over the Purchase Card Program
Were Not Effective in Ensuring Appropriate Use




                                                 Page 32
  Controls Over the Purchase Card Program
Were Not Effective in Ensuring Appropriate Use




                                                 Page 33
  Controls Over the Purchase Card Program
Were Not Effective in Ensuring Appropriate Use




                                                 Page 34
